APP&1Z»)( &

IN THE SUPREME COURT OF ALABAMA
November 20, 2019
1190130
William N. Lucy v. Estate of Annie D. Fox
Probate Court: 2018-1703).

(Appeal from Mobile

ORDER
The Motion to Proceed In Forma Pauperis filed by William
N. Lucy on October 31, 2019, having been fully considered,
IT IS ORDERED that the Motion to Proceed
Pauperis in this matter is hereby GRANTED.

In

Forma

Witness my hand this 20th day of November, 2019.

Clerk, Supreme Court of Alabama
FILED
November 20, 2019
1:51 pm
Clerk
Supreme Court of Alabama
cc: Don Davis
Mobile County Probate Court
William N. Lucy
Jimmy H. Fernandez
Frank Kruse

fiPfPtil)'* 6

IN THE SUPREME COURT OF ALABAMA
November 25, 2019
1190130
William N. Lucy v. Estate of Annie D. Fox
Probate Court: 2018-1703).

(Appeal from Mobile

ORDER
IT IS ORDERED that this cause is DEFLECTED to the Court
of Civil Appeals pursuant to § 12-2-7(6) , Code of Alabama,
1975 .
IT IS FURTHER ORDERED that further proceedings in this
cause shall be filed with the Court of Civil Appeals pursuant
to the rules of procedure applicable to that court.
Witness my hand this 25th day of November, 2019.
C^t
Clerk, Supreme Court of Alabama
FILED
November 25, 2019
10:01 am
Clerk
Supreme Court of Alabama
cc: Don Davis
Rebecca Oates
Mobile County Probate Court
William N. Lucy
Jimmy H. Fernandez
Frank Kruse

^

The Court of Civil Appeals

REBECCA C. OATES
CLERK

300 DEXTER AVENUE
MONTGOMERY, ALABAMA 36104-3741
TELEPHONE 334-229-0733

MEG WILLIAMS FIEDLER
ASSISTANT CLERK

November 25, 2019

2190176
William N. Lucy v. Estate of Annie D. Fox (Appeal from Mobile Probate Court:
2018-1703)
INFORMATIONAL FiLiNG NOTiCE

This appeal, having been deflected, has been docketed. Future communication
should refer to the appellate case number above. YOUR APPEAL HAS NOT BEEN
SELECTED FOR MEDIATION.
If you are an attorney, you may register to e-file with this court at:
www.judicial.alabama.gov (select appellate E-Filing). The clerk's office phone number
is (334) 229-0733, and the address is: 300 Dexter Avenue, Montgomery, Alabama
36104-3741.
Your attention is directed to several provisions of the appellate rules which will help
in processing your case. Failure to strictly comply with the Ala.R.App.P. may result in
the dismissal of your case. Some of these rules are summarized below.
There have been some rule changes. The e-appellate rules may be accessed at the
following website: www.judicial.alabama.gov.
An original and 5 copies of all motions are required. Although, if you are
electronically filing, please send transaction receipt and 5 copies. Except for routine
motions, the Court will rule on the next motion docket after the other side has had a
7-day opportunity to respond. Ala.R.App.P., Rule 27(a).
A 7-day extension of time may be granted per brief. A request for extension will be
granted over the telephone; however, any extension must be confirmed in writing to this
office, stating the exact date your brief is due, with service of the confirmation letter to
opposing counsel and trial court clerk's office. NO FURTHER EXTENSIONS' WILL BE
GRANTED UNLESS EXTRAORDINARY GOOD CAUSE IS SHOWN. (A heavy
workload will not be considered as good cause.)
Appellant's brief is due 28 days from the date of certificate of completion of the
record on appeal. Appellee's brief is due 21 days from the date of the filing of the

appellant's brief. Appellant's reply brief is optional and, if filed, is due 14 days from the
filing of appellee's brief. If a cross-appeal is filed, appellee has the option of filing the
last reply brief. See Rule 31(a), Ala.R.App.P.
ATTORNEY FEE REQUEST: In any case in which an attorney is requesting
attorney fees on appeal, the attorney is to attach an itemized statement to the request.
The attorney fee request must be made at the time of the filing of a party's brief. The
request may be made in either the brief or by separate motion which should accompany
the brief.
Briefs must be bound on the left. Any clasps, staples or other fasteners used to bind
the briefs must be covered by tape (nylon reinforced tape suggested) to prevent any
injury to those handling the brief.
An original and 5 copies of all briefs are required. Although, if you are electronically
filing, please send transaction receipt and 5 copies. Color of covers to be used on
briefs are: appellant's brief/blue, appellee's brief/red, appellant's reply brief/gray,
intervenor or amicus curiae brief/green, and rehearing briefs/white. BRIEFS MUST
COMPLY WITH RULE 28, Ala.R.App.P.
Papers shall be deemed filed in the appellate court clerk's office on the date of
mailing ONLY if mailed certified, registered, or express mail if the United States Postal
Service is used or dispatched through a third-party commercial carrier for delivery as
outlined in Rule 25(a), Ala.R.App.P. Electronic filing is "deemed filed" when document
is uploaded and efiled.
NO EXTENSIONS will be granted for filing an Application for Rehearing and brief in
support of an Application for Rehearing or for filing a Reply Brief to the Application for
Rehearing.
The Rules governing admission to the Alabama State Bar have express direction for
counsel appearing pro hac vice. If counsel desires to make a pro hac vice appearance
in this Court, please contact this office for specific requirements.
In forma pauperis status in civil cases generally waives the $200 docket fee and
security for costs only. Proper financial arrangements must be made for the completion
of the clerk's record and the court reporter(s)' transcript in civil cases. See Rule 24,
Ala.R.App.P. (Committee Comments); The grant of in forma pauperis status allows for
a transcript without payment in some appeals from juvenile court.
Rebecca C. Oates, Clerk

ab

2, of*

j>

SUPREME COURT OF ALABAMA
JULIA JORDAN WELLER
CLERK OF COURT

Office of the Clerk
300 Dexter Avenue
Montgomery, AL 36104-3741
(334) 2290700

L. BETH HAISTEN
ASSISTANT CLERK
LARRY ISRAEL
CHIEF FINANCIAL OFFICER

December 2, 2019
William N. Lucy
AIS # 204880- I2-53A
Bullock Co. Correctional Facility
P.0. Box 5107 .
Union Springs, AL 36089
Re: Your documents received January 16, 2020
Dear Mr. Lucy:
The Alabama Supreme Court is a court of limited appellate
jurisdiction, and its members are bound by the Canons. It can
hear only those cases which are appealed to it through the
proper procedural channels and it has no independent
investigatory powers. It is not possible for the members of
the Court or the personnel of this office to intervene in this
matter.
Enclosed herewith, we are returning to you the documents
we received.
There is no further action that can be taken on your
filing.
/S/ Julia Jordan Weller, Clerk
Supreme Court Clerk's Office

....
4

APPBrtML*.

The Court of CivirXppeals

REBECCA C. OATES
CLERK .

300 DEXTER AVENUE
MONTGOMERY, ALABAMA 36104-3741
TELEPHONE 334-229-0733

MEG WILLIAMS FIEDLER
ASSISTANT CLERK

February 11, 2020
2190176
William N. Lucy v. Estate of Annie D. Fox (Appeal from Mobile Probate Court:
2018-1703)

IT IS ORDERED, by the court, that the appeal in the above styled cause be, and the
same is hereby, dismissed for lack of prosecution due to appellant's failure to pay the
Mobile County Probate Court for the estimated cost of preparing the record. All pending
motions are moot.
IT IS FURTHER ORDERED that the costs be taxed against the appellant(s) as
provided by Rule 35, Ala. R. App. P.

I, Rebecca C. Oates, Clerk of the Court of Civil Appeals of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of
record in said Court. Witness my hand this 11th day of February, 2020.

C - Ootfcto)
Rebecca C. Oates

STATE OF ALABAMA
COURT OF CIVIL APPEALS
f

May 18, 2020
2190176
William N. Lucy v. Estate of Annie D. Fox (Appeal from Mobile Probate Court:
2018-1703)

CERTIFICATE OF JUDGMENT
The appeal in this cause having been duly submitted, IT IS CONSIDERED,
ORDERED, AND ADJUDGED that the appeal was dismissed on February 11, 2020 i
for lack of prosecution due to appellant's failure to pay the Mobile County Probate Court
for the estimated cost of preparing the record.

r.

IT IS FURTHER ORDERED that the costs of appeal are taxed against the
appellant(s) and sureties as provided by Rule 35, Alabama Rules of Appellate
Procedure.
The Petition For Writ of Certiorari filed in the Supreme Court of Alabama on
March 4, 2020, was denied on May 15, 2020. The certificate bf.judgrhent is being
transmitted on May 18, 2020.

RaJbft-tUUX/ C . OofcuD
Rebecca C. Oates
Clerk, Court of Civil Appeals

!

, i

;<...... ...

vSV,

s»<

-L’'

•

c'V

vr;.

v-v .

:

ipi re-' c% ;'v03qx;-

>•
-

’

! % */*•

r >•

.-'7 j

:,*■

,C; *

t * ; yy

\

QOi-'-wt'.

•»; i;> • \ {

;

l ; :i: Sr
V \,

t-i l

§

i

■: ■ -hi'-l

;s>3

IN THE SUPREME COURT OF ALABAMA

May 15, 2020
,1190475
Ex parte William N. Lucy. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF CIVIL
APPEALS (In re: William N. Lucy v. Estate of Annie D. Fox) (Mobile Probate Court:
2018-1703; Civil Appeals : 2190176).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on May 15, 2020:
Writ Denied. No Opinion. Parker, C.J. - Shaw, Bryan, Mendheim, and Mitchell, JJ.,
concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 15th day of May, 2020.

til'?

Clerk, Supreme Court of Alabama

